      Department of Homeland Security




          DHS Contracts Awarded Through
        Other Than Full and Open Competition
                During Fiscal Year 2011




OIG-12-37                                      January 2012
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This report addresses the strengths and weaknesses of the DHS Office of the Chief
Procurement Office. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.


                                      Anne L. Richards
                                      Assistant Inspector General for Audits
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Audit ...................................................................................................................6


     Acquisition Management Oversight ..............................................................................6 


     Acquisition Planning ...................................................................................................12 


     Contractor Eligibility ...................................................................................................13 


Recommendations..............................................................................................................13


Management Comments and OIG Analysis ......................................................................14 


Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................16 

     Appendix B:           Management Comments to the Draft Report .......................................17 

     Appendix C:           DHS Contract Files Reviewed .............................................................20 

     Appendix D:           OCPO Guidance to DHS Components ................................................21 

     Appendix E:           Contract File Checklist ........................................................................22 

     Appendix F:           Major Contributors to this Report........................................................23 

     Appendix G:           Report Distribution ..............................................................................24 


Abbreviations
     APFS                  Acquisition Planning Forecast System
     DHS                   Department of Homeland Security
     CPO                   Chief Procurement Officer
     EPLS                  Excluded Parties List System
     FAPIIS                Federal Awardee Performance and Integrity Information System
     FAR                   Federal Acquisition Regulation
     FPDS                  Federal Procurement Data System-Next Generation
     FY                    fiscal year
     HSAM                  Homeland Security Acquisition Manual
     OCPO                  Office of the Chief Procurement Officer
     OFPP                  Office of Federal Procurement Policy
     OIG                   Office of Inspector General
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                   The Department of Homeland Security Appropriations Act for
                   Fiscal Year 2012 included a requirement that the Department of
                   Homeland Security Office of Inspector General review the
                   Department’s contracts awarded through other than full and open
                   competition during fiscal year 2011 to determine compliance with
                   applicable laws and regulations. We reviewed selected component
                   contract files, as well as departmental policies, procedures, and
                   management controls, to determine whether acquisition personnel
                   appropriately documented and supported contracting decisions.

                   The Department obligated about $929 million for noncompetitive
                   contracts during fiscal year 2011. Our review of 40 contract files,
                   with a reported value of more than $731 million, showed that the
                   Department improved acquisition management oversight by
                   strengthening its guidance and completing reviews of the
                   components to validate compliance with its guidance. We
                   previously reviewed noncompetitive contracting at DHS for
                   contracts awarded during fiscal years 2008, 2009, and 2010, and
                   noted that the Department continued to show improvements during
                   fiscal year 2011 with documenting support for noncompetitive
                   contracting decisions. Specifically, deficiencies with
                   documentation for justification and approval, market research,
                   acquisition planning, and past performance declined over this 3­
                   year period. However, not all contract files contained sufficient
                   evidence of acquisition planning. Also, acquisition personnel did
                   not always document consideration of contractor past performance
                   when performing background research on eligible vendors. As a
                   result, the Department cannot be sure that it received the best
                   possible value on the goods and services acquired through these
                   contracts or that acquisition personnel awarded government
                   contracts to eligible and qualified vendors.

                   We are making two recommendations to the Department’s Chief
                   Procurement Officer to continue efforts to improve acquisition
                   management oversight.




           DHS Contracts Awarded Through Other Than Full and Open Competition 

                                During Fiscal Year 2011


                                         Page 1
Background
                The Competition in Contracting Act of 1984 requires, with limited
                exceptions, that contracting officers promote and provide for full
                and open competition in soliciting offers and awarding U.S.
                government contracts. The Federal Acquisition Regulation (FAR)
                codifies uniform policies for acquiring supplies and services by
                executive agencies.

                The Office of Federal Procurement Policy (OFPP) in the Office of
                Management and Budget plays a central role in shaping the
                policies and practices that federal agencies use to acquire goods
                and services. The office employs several tools to collect, develop,
                and disseminate government-wide procurement data for use by
                federal agencies and the general public, the most significant being
                the Federal Procurement Data System-Next Generation (FPDS).
                The government uses these data to measure and assess various
                elements of procurement performance, including funds obligated
                and the extent of competition. OFPP requires executive agencies
                to certify annually that the data entered into this standard system
                are accurate and complete. We relied on data in this system as our
                source to identify noncompetitive contracts.

                Competition provides the best assurance that the government has
                received a fair and reasonable price and obtained the most
                comprehensive input on the technical aspects of the various
                methods to complete its work. It encourages contractors to offer
                best-value proposals when bidding on federal contracts, thereby
                reducing costs and protecting the interest of taxpayers. According
                to the FAR, “best value” is the expected outcome of an acquisition
                that, in the government’s estimation, provides the greatest overall
                benefit in response to a requirement. Competition also discourages
                favoritism by leveling the playing field for contract competitors
                and curtailing opportunities for fraud and abuse.

                Contract specialists are required to perform certain steps during the
                other than full and open contracting process. As depicted in
                figure 1, the process begins when personnel identify a need.
                Contract personnel perform market research to determine the most
                suitable approach for acquiring, distributing, and managing
                supplies and services to support the Department’s mission.
                Acquisition planning helps ensure that the government is meeting
                its needs in the most effective, economical, and timely manner.
                With this assurance, acquisition personnel announce a solicitation
                on FedBizOpps, the single, government-wide point of entry for

        DHS Contracts Awarded Through Other Than Full and Open Competition 

                             During Fiscal Year 2011


                                      Page 2
             federal procurement opportunities greater than $25,000, unless the
             agency authorizes an exception. After the government awards a
             contract under other than full and open competition, the FAR
             requires the agency to make the justification publicly available
             within 14 days, unless the Unusual and Compelling Urgency
             exception is used, which allows for 30 days. Agencies post
             justifications on FedBizOpps. The contract administration phase
             begins after acquisition personnel post the justification and
             approval to FedBizOpps. Additionally, the Homeland Security
             Acquisition Manual (HSAM) requires, with some exceptions, that
             the Department of Homeland Security (DHS) notify Congress
             when awarding contracts over $1 million.

Figure 1. The Contracting Process


                                Other than Full and Open Competition Process




                                 Perform                                                     Begin
  Identify          Conduct                                  Evaluate        Publish        Contract
                     Market    Acquisition    Announce         and        Justification
    Need                                                                                  Administration
                    Research    Planning     Solicitation     Award             on           Phase
                                                                          FedBizOpps
Source: DHS-OIG generated.




             The following entities within DHS have a role in managing these
             procurements:

                The Office of the Chief Procurement Officer (OCPO) is
                responsible for ensuring the integrity of all acquisitions that
                support DHS, according to DHS Management Directive 0784,
                dated December 19, 2005. OCPO provides policy, procedures,
                guidance, and training to the Department’s acquisition
                workforce. OCPO also oversees the acquisition of contracted
                goods and services for DHS through several entities, such as
                the Oversight and Pricing Branch, the competition advocates,
                and heads of contracting activity.

                The Oversight and Pricing Branch supports OCPO’s mission
                by executing internal procurement oversight responsibility and
                providing just-in-time procurement support to DHS component
                contracting activities. Branch personnel perform individual
                component as well as targeted, stand-alone oversight reviews
                useful for both internal and external stakeholders. The staff
                also provides coordination and reviews of high-dollar

DHS Contracts Awarded Through Other Than Full and Open Competition
                     During Fiscal Year 2011

                                 Page 3
            acquisition-related support documentation, expert-level pricing
            support and training, and component-focused procurement
            guidance.

            The DHS Competition Advocate is responsible for promoting
            full and open competition, promoting acquisition of
            commercial items, and removing barriers to full and open
            competition such as unnecessarily restrictive statements of
            work, overly detailed specifications, and unnecessarily
            burdensome contract clauses. The DHS Competition Advocate
            must submit an annual report to the Chief Procurement Office
            on the components’ procurement activities.

            The Procuring Competition Advocate is responsible for
            promoting full and open competition, promoting acquisition of
            commercial items, and removing barriers to full and open
            competition such as unnecessarily restrictive statements of
            work, overly detailed specifications, and unnecessarily
            burdensome contract clauses at the component level. The
            Procuring Competition Advocate must submit an annual report
            to the DHS Competition Advocate on the components’
            procurement activities.

            Heads of Contracting Activity directly manage the
            procurement functions of their respective components. They
            assist in the execution of acquisition programs by providing the
            necessary resources, facilities, and infrastructure for the
            procurement process. They also provide procurement data and
            lessons learned to the Chief Procurement Officer for wider
            distribution within DHS.

            Contracting Officers are responsible for many activities leading
            up to an acquisition for goods or services. Responsibilities
            include ensuring that sufficient funds are available for
            obligation, requesting offers from as many potential sources as
            practicable, certifying that all required justification and
            approvals are accurate for awarding contracts noncompetitively,
            and determining that the anticipated cost to the government
            will be fair and reasonable. Contracting officers are also
            responsible for timely and accurate reporting of procurement
            data to the standard system.

            Program Managers are empowered to make final scope of
            work, capital investments, and performance acceptability
            decisions, and are responsible for accomplishing program

DHS Contracts Awarded Through Other Than Full and Open Competition
                     During Fiscal Year 2011

                              Page 4
                                objectives or production requirements through the acquisition
                                of in-house, contract, or reimbursable support resources, as
                                appropriate. Program managers’ duties include developing and
                                updating the acquisition plan, coordinating with other
                                personnel responsible for significant aspects of the plan,
                                obtaining applicable concurrences, and forwarding the plan
                                through the approval process.

                                Technical Representatives are responsible for providing and
                                certifying necessary data to support their recommendation for
                                other than full and open competition as being accurate and
                                complete.

                            The Department of Homeland Security Appropriations Act for
                            Fiscal Year (FY) 2012 directs the Office of Inspector General
                            (OIG) to review DHS contracts awarded during FY 2011 through
                            other than full and open competition to determine departmental
                            compliance with applicable laws and regulations. The act advises
                            OIG, when selecting contracts for review, to consider the following:

                                     The cost and complexity of the goods and services
                                     provided under other than full and open competition
                                     contracts
                                     The criticality of the contracts to fulfilling the
                                     Department’s missions
                                     The problems with past performance on similar contracts or
                                     by the selected vendors
                                     The complaints received about the award process or
                                     contractor performance1

                            DHS obligated about $929 million for noncompetitive contracts
                            during FY 2011. We reviewed DHS component contract files for
                            contracts awarded during FY 2011 through other than full and
                            open competition to determine whether component personnel
                            included and approved all required justifications and other
                            elements in the contract files. We selected 40 noncompetitive
                            contract awards with a total value of more than $731 million. We
                            also reviewed DHS policies, procedures, and management controls
                            to determine whether acquisition personnel appropriately
                            documented and supported contracting decisions.




1
    Public Law 112-74, Division D, Section 520(d).

                   DHS Contracts Awarded Through Other Than Full and Open Competition
                                        During Fiscal Year 2011

                                                     Page 5
Results of Audit
     DHS has made overall improvements in its acquisition management oversight. It
     completed its planned oversight review and issued updated guidance to strengthen
     controls over acquisition management in response to OIG audit report
     recommendations. Its Competition Advocate also requires components to report
     progress in achieving competition goals.

     Department and component actions improved the overall process; however, DHS
     must do more to ensure accuracy and completeness of contract file documentation.
     Although deficiencies decreased in justification and approval of noncompetitive
     contracts and market research compared to previous years, contract files reviewed
     did not always have sufficient evidence of acquisition planning and consideration
     of vendor past performance history. These deficiencies occurred because
     contracting personnel did not include adequate documentation in the contract files
     to support the use of other than full and open competition.

     DHS cannot be sure that it received the best possible value on the goods and
     services acquired through these contracts. In addition, it is uncertain that
     acquisition personnel awarded government contracts to eligible and qualified
     vendors.

     Acquisition Management Oversight
            OCPO has made progress in improving oversight of contracting activities.
            On June 13, 2011, OCPO issued a followup review of noncompetitive
            contracting efforts. OCPO reviewed new noncompetitive contracts
            awarded from August 1 to September 30, 2010, in accordance with
            Management Directive 0784. OCPO reviewed contract files to determine
            if the components (1) made contract files available, (2) properly coded
            contracts in FPDS, (3) had supporting documentation in the contract file,
            (4) cited authority for the justification, and (5) had adequate justification
            for the authority cited. OCPO concluded that DHS had improved in all five
            areas since OCPO’s last review in March 2010, which cited these five areas.

            Additionally, during FY 2011, OCPO distributed various supplemental
            directives to component Heads of Contracting Activity to help guide
            noncompetitive contracting decisions. Specifically, OCPO issued
            directives containing guidance for justification and approval, market
            research, acquisition planning, and contractor past performance (see
            appendix D).

            The additional guidance OCPO provided to component acquisition
            personnel represents the Department’s efforts to strengthen documentation
            and support for contracting decisions and improve accountability within
            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2011


                                          Page 6
DHS. However, DHS needs to continue to improve and monitor progress
in acquisition planning and to consider contractor past performance.

        Improvement Trends

        We previously reviewed noncompetitive contracting at DHS for
        contracts awarded during FYs 2008, 2009, and 2010, and noted
        that DHS continued to show improvements during FY 2011 with
        documenting support for noncompetitive contracting decisions.
        Specifically, deficiencies with documentation for justification and
        approval, market research, acquisition planning, and past
        performance declined over this 3-year period. Figure 2 represents
        by percentage the deficiencies noted in the 40 files we reviewed by
        oversight area.

        Figure 2. Prior OIG Audit Results

                                  FY2008-FY2011 Trend Analysis
         90%
                            76%           79%
         80%
         70%
                      71%
         60%
         50%
                                    53%              41%
         40%                                                           39%
                                                    28%
         30%
                   27%
         20%                                                        10%
                                                      11%
         10%                                                           5%
                                     13%                                             EPLS
                                                 7%                    2.5%
          0%


        Source: DHS OIG analysis. Note: We did not evaluate past performance information in FYs 2008
        and 2009. Also, the past performance results in the chart pertain to documentation of checks in the
        Excluded Parties List System and not deficiencies we identified with checks of the Federal Awardee
        Performance and Integrity Information System as required by the FAR.


        For example:

             Justification and approval deficiencies dropped gradually
             between 2008 and 2011. The number of deficiencies we noted
             decreased from 27% in FY 2008 to 13% in FY 2009, then from
             11% in FY 2010 to 5% in this year’s audit.

             Market research deficiencies rose slightly from 2008 to 2009
             but declined sharply between 2009 and 2010. For example, we
             noted market research deficiencies in 76% of the files reviewed

DHS Contracts Awarded Through Other Than Full and Open Competition
                     During Fiscal Year 2011

                                     Page 7
            in FY 2008, and that figure rose to 79% in FY 2009. However,
            between 2009 and 2010, the number of deficiencies declined to
            7% in FY 2010 and to 2.5% of the files reviewed this year. We
            attribute improvements in these two areas to the Department’s
            increased acquisition management oversight.

            Acquisition planning deficiencies dropped steadily from
            FY 2008 to 2010, but declined by only 2% between 2010 and
            2011. We found acquisition planning deficiencies in 71% of
            the files reviewed in FY 2008. That number dropped to 53% in
            FY 2009, then continued to decline to 41% in FY 2010.
            However, we found acquisition planning deficiencies in 39%
            of the files reviewed this year, primarily because we did not find
            evidence in the contract file that acquisition personnel entered
            advance acquisition plans in the new system. We attribute the
            acquisition planning deficiencies to the Department’s lack of
            acquisition management oversight of this area.

            Past performance deficiencies also declined between 2010 and
            2011. Starting in 2010, we assessed the Department’s
            compliance with documenting checks for contractor past
            performance in the Excluded Parties List System (EPLS) and
            noted deficiencies in 28% of the files we reviewed. For
            FY 2011, that number decreased to 10% of the files reviewed.
            However, we found that the Department’s acquisition
            personnel were not documenting their checks for past
            performance information in the Federal Awardee Performance
            and Integrity Information System (FAPIIS), as required by the
            FAR, and DHS lacked oversight of this requirement.

        DHS showed overall improvement in most areas, but OCPO needs
        to continue to monitor compliance with regulatory requirements
        for documenting and supporting noncompetitive contract
        decisions.

        Noncompetitive Procurement Justification and Approval

        Although competition is the preferred method of acquisition within
        the federal government, FAR §§ 6.302-1–6.302-7 permit other
        than full and open competition under the following circumstances:

                Only one responsible source and no other supplies or
                services to satisfy agency requirement
                Unusual and compelling urgency


DHS Contracts Awarded Through Other Than Full and Open Competition
                     During Fiscal Year 2011

                              Page 8
                                   Industrial mobilization; engineering, developmental, or
                                   research capability; or expert services
                                   International agreement
                                   Authorized or required by statute
                                   National security
                                   Public interest

                          The FAR requires that
                          any agency contracting      Figure 3. Exceptions to Written Justification
                                                      and Approval Requirement for Noncompeted
                          officer who approves the    Contracts
                          acquisition of goods or
                          services through other      1: Agency need for a brand name commercial item
                                                      for authorized resale.
                          than full and open
                          competition provide         2: Acquisition from qualified nonprofit agencies
                                                      for the blind or other severely disabled.
                          written justification. The
                                                      3: Sole source awards under the 8(a) Program.2
                          justification must have
                          approvals from the          4: When a statute expressly requires that the
                                                      procurement be made from a specified source.
                          appropriate authority.
                          Depending on the dollar     5: Sole source acquisitions with an estimated
                                                      value equal to or less than $150,000, or
                          amount of the acquisition, acquisitions that qualify under the FAR test
                          the justification approval  program for certain commercial items.
                          requirements may vary.      6: U.S. Coast Guard is exempt from the
                          For contracts that require  requirement for written justifications and
                                                      approvals for contracts awarded citing
                          written justification, the  International Agreement.
                          contracting officer must
                          sign to certify that the    Source: FAR Subpart 6.302-4(c); 6.302-5(c)(2)-(3);
                                                      13.500(e); and 13.501(a)(2)(i)
                          information is complete
                          and accurate. As shown in figure 3, the FAR allows some
                          exceptions to the requirement for written justification for
                          noncompeted contract awards.

                          DHS continued to improve documenting justification and
                          approvals for awarding noncompetitive contracts. We reviewed
                          our audit reports from FYs 2008, 2009, and 2010, and compared
                          the number of deficiencies in justification and approval
                          documentation. For the FY 2011 contracts in our sample, we
                          identified only one deficiency in documentation and support for
                          justifications and approvals. In previous years, the number of
                          deficiencies identified in files fell steadily from 27% in FY 2008,
                          to 13% in FY 2009, to 11% in FY 2010.

2
  The Small Business Administration’s 8(a) Program, named for a section of the Small Business Act, is a
business development program created to help small, disadvantaged businesses compete in the American
economy and access the federal procurement market. Participants are given preferential treatment in
federal contracting.

                 DHS Contracts Awarded Through Other Than Full and Open Competition
                                      During Fiscal Year 2011

                                                 Page 9
                          We reviewed 40 noncompetitive contract awards from FY 2011,
                          with an obligated value of about $731 million (see appendix C).
                          The FAR requires certification for justification and approvals
                          based on the dollar threshold of the contract. For example,
                          contracts valued at less than or equal to $650,000 require
                          contracting officer certification, while contracts greater than
                          $650,000 but less than $12.5 million require the component
                          Competition Advocate’s certification.3 Contract data recorded in
                          the standard system showed that 19 of the 40 noncompetitive
                          awards required written justification and approval. Acquisition
                          personnel placed the required justification and approval
                          documentation in these 19 files based upon the FAR guidance.
                          However, the contracting officer did not sign the justification and
                          approval for 1 of the 19 files. We were not able to determine that
                          the Department awarded this contract based on a properly certified
                          justification and approval.

                          In addition to the above certification requirement, the HSAM
                          requires that DHS notify Congress when awarding contracts over
                          $1 million. In our sample, 21 of the 40 noncompetitive awards had
                          individual values greater than the $1 million threshold, therefore
                          requiring congressional notification. We found evidence that DHS
                          notified Congress in 16 of the 21 files reviewed. DHS cannot be
                          assured that Congress was properly notified of the five remaining
                          noncompetitive awards.

                          Although DHS made significant improvement in providing
                          oversight and direction on justification and approval
                          documentation, it needs to continue performing its management
                          oversight and implement corrective actions where reviews and
                          audits may identify deficiencies.

                          Market Research

                          DHS also showed improvement in documenting market research
                          over the 4-year period. In FY 2008, about 76% of the files we
                          reviewed showed deficiencies in market research, in FY 2009
                          deficiencies increased to about 79%, but in FY 2010, deficiencies
                          declined to about 7%. During FY 2011, market research
                          deficiencies remained low at about 2.5%.



3
 Transportation Security Administration Management Directive No. 300.13 requires component
Competition Advocate approval of justifications and approvals for contracts valued greater than $550,000.

                 DHS Contracts Awarded Through Other Than Full and Open Competition 

                                      During Fiscal Year 2011


                                                 Page 10
        FAR § 10.001 requires agencies to conduct market research before
        (1) developing new requirements documents for an acquisition;
        (2) soliciting offers for an acquisition that exceeds $150,000, or is
        less than $150,000 when adequate information is not available and
        circumstances justify the cost; or (3) soliciting offers for acquisitions
        that could lead to a bundled contract. Agencies should conduct
        market research to ensure that the government is procuring goods
        and services at reasonable costs, regardless of the status of
        competition.

        The HSAM also includes department-wide guidance that instructs
        acquisition personnel to conduct market research that enhances
        transparency and competition. DHS requires that acquisition
        personnel clearly document and include in the contract file market
        research efforts and results. Market research results are a key
        factor in acquisition related decision-making. Specifically, the
        acquisition team should use market research information to support
        price reasonableness determinations. We found evidence to support
        efforts to determine price reasonableness, such as the following:

                Independent government cost estimates
                Wage determinations
                Cost and pricing data

        Further, the HSAM instructs acquisition personnel to check federal
        contracting databases such as the central contractor registration
        system, the past performance information retrieval system, and the
        excluded parties list system when conducting market research.

        Of the 40 noncompetitive contracts reviewed, 39 contract files
        (97.5%) contained evidence that acquisition personnel supported
        and sufficiently documented market research efforts. However,
        one contract for computer software and hardware did not include
        sufficient evidence that acquisition personnel performed and
        documented the required market research. Therefore, DHS cannot
        be assured that acquisition personnel conducted the required
        market research to obtain the best price for goods and services
        prior to awarding this contract.

        Although DHS significantly improved its oversight and direction
        on adequate market research documentation, it needs to continue
        performing its management oversight and implement corrective
        actions to ensure that it receives the best value for goods and
        services acquired.


DHS Contracts Awarded Through Other Than Full and Open Competition
                     During Fiscal Year 2011

                             Page 11
Acquisition Planning
     Acquisition planning continues to be a challenge for the Department.
     Components have not complied with DHS policy for documenting
     advance acquisition plans in the contract file as well as entering these
     forecasts into the new system for publicizing future contracting
     opportunities.

     According to FAR §2.101, acquisition planning is the process by which
     the efforts of DHS personnel are coordinated and integrated to forecast
     procurement needs and fulfill this necessity in a timely manner and at a
     reasonable cost. Acquisition planning includes developing the overall
     strategy for managing the acquisition. DHS makes acquisition plans
     available to the public to allow businesses the chance to identify future
     contracting opportunities.

     The Department of Homeland Security Acquisition Manual, Appendix H,
     requires DHS to prepare a formal written plan for acquisitions greater than
     or equal to $10 million. However, for acquisitions estimated to be valued
     at less than $10 million, advance acquisition plans are entered into the
     Acquisition Planning Forecast System (APFS), eliminating the need for a
     written acquisition plan. Acquisition personnel should document their
     efforts to forecast and publicize the contracting opportunities in the
     contract file.

     In accordance with Public Law 100-656, DHS implemented APFS to
     allow the public access to information regarding future contract
     opportunities. Prior to February 28, 2011, DHS entered advance
     acquisition plans in the Federal Interagency Databases Online using DHS­
     AAP at FIDO.gov. DHS retired this system on February 28, 2011, and
     notified components of temporary procedural changes to manually
     complete advance acquisition plans. Once APFS became operational, the
     Department instructed components to review APFS to ensure that all plans
     had properly migrated to the new system.

     Of the 40 contract files in our sample, 4 (10%) had individual values
     greater than $10 million and required a formal written plan. We found
     formal written acquisition plans in the contract files for these four
     contracts, with a total value of $680,374,243. For the remaining 36
     contracts, valued at less than $10 million each and requiring advance
     acquisition plans, we did not find evidence in the contract files that
     acquisition personnel prepared plans for 14 (39%) of the contracts, with a
     total value of $10,393,001. One component implemented a checklist
     indicating that it was not necessary to document advance acquisition plans
     in the contract file if entered into the database (see appendix E). This

     DHS Contracts Awarded Through Other Than Full and Open Competition 

                          During Fiscal Year 2011


                                   Page 12
      guidance contradicts the Department’s policy requiring acquisition
      personnel to place advance acquisition plan information in the contract
      file.

      DHS needs to continue to emphasize better planning and documenting
      acquisitions to promote and provide for competition and the selection of
      the appropriate contract type in compliance with federal regulations.

Contractor Eligibility
      DHS continues to have compliance challenges when assessing vendor past
      performance. Acquisition personnel do not always use the required systems
      when determining contractor responsibility prior to contract award.

      FAR 9.105-1 requires contracting officers to consider information from
      FAPIIS when determining prospective contractor eligibility. This system
      links information from EPLS and the Past Performance Information
      Retrieval System to enable users to access one system that captures the
      consolidated performance history of prospective contractors. In April
      2011, the Department issued an acquisition alert requiring acquisition
      personnel to use data from both EPLS and FAPIIS. DHS also requires
      acquisition personnel to include evidence in the contract file to support
      resources used in responsibility determinations.

      In 4 (10%) of the 40 files in our sample, valued at $5,818,064, we did not
      find evidence that acquisition personnel checked EPLS in accordance with
      DHS policy. In 36 (90%) of the 40 files, we did not find evidence that
      acquisition personnel also checked FAPIIS as required. The total value of
      these 36 contracts is $715,564,635.

      Acquisition personnel must improve documentation of their efforts to
      establish contractor eligibility prior to awarding contracts. Evidence that
      acquisition personnel checked resources such as FAPIIS and EPLS
      provides increased assurance that DHS purchases goods and services from
      and awards contracts to responsible prospective contractors. Awarding
      contracts without taking the required steps to access resources containing
      critical past performance information diminishes the Department’s ability
      to prevent subsequent default, late deliveries, or unsatisfactory
      performance, resulting in additional contractual costs.

      Recommendations
              We recommend that the DHS Chief Procurement Officer, in
              coordination with component Heads of Contracting Activities:


      DHS Contracts Awarded Through Other Than Full and Open Competition 

                           During Fiscal Year 2011


                                    Page 13
        Recommendation #1: Increase acquisition management oversight
        to ensure that DHS acquisition personnel are following policies for
        placing evidence of advance acquisition plans in the contract file.

        Recommendation #2: Increase acquisition management oversight
        to ensure that acquisition personnel place evidence in the contract
        files that they checked the Federal Awardee Performance and
        Integrity Information System as required by the FAR.

Management Comments and OIG Analysis
        The Department provided comments on the draft of this report. A
        copy of the comments in its entirety is included in appendix B.
        The Department concurred with the recommendations in the report
        and indicated planned actions to address the recommendations
        made within the report.

        The Department provided technical comments and suggested
        revisions to sections of our report. As appropriate, we made
        changes throughout the report in response to those suggested
        revisions.

        Management Comments to Recommendation 1

        DHS concurs. The Department indicated the Chief Procurement
        Office (CPO) will issue a memorandum to contracting personnel
        emphasizing the current requirement that evidence of acquisition
        planning be included in the contract file. The Department also
        stated that it will modify the checklist used during contracting
        reviews.

        OIG Analysis: The Department’s planned actions sufficiently
        address the recommendation. The recommendation is resolved,
        but will remain open until the Department provides (1) a copy of
        the memorandum emphasizing that acquisition personnel place
        evidence of acquisition planning in the contract file and (2) a copy
        of the CPO’s checklist that enforces compliance with this
        requirement.

        Management Comments to Recommendation 2

        DHS concurs. The Department stated that CPO will revise the
        HSAM to require that contracting personnel include a statement in
        the contract file that contracting personnel queried FAPIIS and that
        no adverse information was present.

DHS Contracts Awarded Through Other Than Full and Open Competition 

                     During Fiscal Year 2011


                              Page 14
        OIG Analysis: The Department’s planned actions sufficiently
        address the recommendation. The recommendation is resolved,
        but will remain open until the Department provides (1) a copy of
        the HSAM revision requiring contracting personnel to place
        evidence in the contract file that they queried FAPIIS and (2) a
        copy of the CPO’s checklist that includes checks for compliance.




DHS Contracts Awarded Through Other Than Full and Open Competition 

                     During Fiscal Year 2011


                              Page 15
Appendix A
Purpose, Scope, and Methodology

                    The Department of Homeland Security Act for the fiscal year
                    ending September 30, 2012 directs OIG to review the
                    Department’s contracts awarded during FY 2011 through other
                    than full and open competition to determine departmental
                    compliance with applicable laws and regulations.

                    To answer our objective, we reviewed applicable federal laws and
                    regulations, as well as DHS and component-specific guidance, to
                    identify requirements for noncompetitive contract awards. We
                    also examined prior audit reports to identify related work and to
                    assess trends in deficiencies with documentation and support
                    identified during prior audits.

                    We sampled contract files at five DHS procurement offices. We
                    relied on data reported in Federal Procurement Data System-Next
                    Generation and selected files for review based on location, cost,
                    complexity, and criticality to the DHS mission. Our sample covered
                    procurement offices within the Federal Emergency Management
                    Agency, U.S. Coast Guard, U.S. Secret Service, U.S. Customs and
                    Border Protection, and the Transportation Security Administration.

                    We reviewed a judgmental sample of 40 contracts awarded during
                    FY 2011 pursuant to the seven exceptions enumerated in
                    FAR § 6.302. We selected files for review from each of the five
                    components to determine whether contract files contained adequate
                    documentation and support for noncompetitive contracting
                    decisions to justify the contract awards. Specifically, we
                    determined whether the noncompetitive contract files contained
                    proper justifications and approvals, adequate market research, and
                    acquisition plans appropriate to the dollar values of the awards.
                    We also checked contract files for documentation to support
                    consideration of vendor past performance. Because there is no
                    assurance that a judgmental sample is representative of the entire
                    universe, we did not project our review results to all DHS contracts.

                    We conducted this performance audit between June and October
                    2011 pursuant to the Inspector General Act of 1978, as amended,
                    and according to generally accepted government auditing
                    standards. Those standards require that we plan and perform the
                    audit to obtain sufficient, appropriate evidence to provide a
                    reasonable basis for our findings and conclusions based upon our
                    audit objectives. We believe that the evidence obtained provides a
                    reasonable basis for our findings and conclusions based upon our
                    audit objectives.


            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2011


                                          Page 16
Appendix B
Management Comments to the Draft Report




                                                                              U.S. Drpartmtnl of 1I0mciand S«urity
                                                                              Washinglon, DC 20528




                                                                              Homeland
                                                                              Security
                                                                                   JAN 20 2012
        MEMORANDUM FOR:              Anne L. Richards
                                     Assistant Inspcctor General for Audits
                                     Office of Inspector General

        FROM:                        David 1. Capitano    rJ} .J d'r:t4
                                     Director, Oversight and Strategic Support
                                     Department of Homeland Security

        SUBJECT:                     CPO Response to Draft Inspector General Report: DHS
                                     Contracts Awarded Through Other Than Full and Open
                                     Competition During Fiscal Year 2011


        In response to your memorandum dated January 5, 2012, entitled "DHS Contracts Awarded
        Through Other Than Full and Open Competition During Fiscal Year 2011- For Official Use
        Only, OIG Project No.II-119-AUD-DHS, " attached are the comments from the Office of the
        Chief Procurement Officer (CPO) for inclusion within the management comments appendix of
        the forthcoming final report.

        If there are any questions, please contact me at (202) 447-5417 or at david.capitano@dhs.gov.

        Attachment




        cc:
        Peggy Sherry, Deputy Chief Financial Officer




              DHS Contracts Awarded Through Other Than Full and Open Competition 

                                   During Fiscal Year 2011


                                                    Page 17

Appendix B
Management Comments to the Draft Report




         CPO Response to OIG Draft Report: "DHS Contracts Awarded Through Other Than Full
                                       and Open Competition During Fiscal Year 2011"

                                                                                     Attachment
        I. CPO Response to OIG Draft Report Recommendations

        The drafllG report includes two recommendations to the Chief Procurement Officer (CPO); a
        specific response to each recommendation is provided below.

        General Comments:

        While we appreciate the recognition in the Executive Summary that the Department has
        generally improved OUf acquisition oversight, we request that this section more fully emphasize
        the outstanding improvements that DHS has made. DHS believes that the Figure 2 chart on
        Page 7 of the draft report is a great illustration of the improvement trends that the Department
        has made since 2008; we recommend that those trends be highlighted in the executive summary.
        If the trends are not highlighted, then at a minimum, we request the Executive Summary state
        that CPO has shown significant improvements in the areas of Justification and Approvals,
        Market Research, and Past Performance (these areas are the ones for which the reduction in
        noncompliance rates is outstanding, as indicated by Figure 2 on Page 7 of the draft report).


        Recommendation 1: "increase acquisition management oversight to ensure that DHS
        acquisition personnel are following policies for placing evidence ofadvance acquisition plans in
        the contract file. "

        CPO Response: DHS concurs with this recommendation. CPO will issue a memorandum to
        contracting personnel emphasizing the current requirement at HSAM 3007.172, Advanced
        Acquisition Plans, which requires that information entered into the Acquisition Planning Forecast
        System (APFS), including the plan number, be included in the contract file(s) to provide evidence of
        acquisition planning. Additionally, review for compliance with this requirement will be included
        as part of CPO's oversight checklist for each contracting activity procurement review. If
        significant improvement in this area is not found during the next twelve months, CPO will
        evaluate further actions (e.g., additional training, inclusion of the requirement in HCA and/or
        employee performance plans).

        Recommendation 2: "increase acquisition management oversight to ensure Ihal acquisition
        personnel place evidence in the contract files that they checked the Federal Awardee
        Performance and Integrity Information System as required by the FAR. "

        CPO Response: DHS concurs with this recommendation. CPO will revise the HSAM to
        require that contracting personnel include, in the contract file, a statement that the contract
        specialist and/or contracting officer queried the system and that no adverse information was
        present in FAPIIS as of a specified date/time. In addition, CPO will include a review of this
        HSAM requirement as part of our oversight checklist for future contracting activity reviews.




              DHS Contracts Awarded Through Other Than Full and Open Competition 

                                   During Fiscal Year 2011


                                                    Page 18

Appendix B
Management Comments to the Draft Report




         CPO Response to OIG Draft Report: "DHS Conlracls Awarded Through Olher Than Full
                                               and Open Competition During Fiscal Year 2011"




        II. CPO Technical Comments

        The following comments are provided in accordance with the draft report sections as specified
        below.

        Section entitled"Acquisition Management Oversight"

            I) Pg 7, Figure 2, under Source," CPO recommends revising "Federal Awardee Integrity
               Information System" to read: "Federal Awardee Performance and Integrity Information
               System."

           2) Page 9; Figure 3 lists the exceptions to written justification and approval requirements for
               non-competed contracts. Item #5 reads "[s]ole source acquisitions with an estimated
               value equal to or less than $150,000, or acquisitions that qualify under the test program
               for certain commercial items." FAR 13.500(e) and 13.50 I(a)(2)(i) are provided as
               sources. FAR 13.501 (a)(2) does require a written justification. Written justifications are
               not required solely for sole source acquisitions equal to or less than $150,000. This is
               indicated in FAR 13.106-1(b). Therefore, CPO recommends that this item be revised.

           3) Page 10, I" full paragraph. While the FAR requires component competition advocate
              certification of J&As for contracts valued greater than $650,000, TSA requires
               competition advocate certification of J&As for contracts valued greater than $550,000.
               CPO recommends that OIG make note of this in the report.

        Appendix A:   '~Purpose,   Scope. and Methodology"

            1) The first sentence of the 2 nd paragraph states "[w]e sampled contracts files at five of eight
               DHS procurement offices." There are nine DHS procurement offices. CPO recommends
               that number be revised.

        Appendix C: "Acquisition Programs Reviewed"

           1) Page 18, contracts #8 and #9 are listed with erroneous contract prefix numbers. These
              are CBP contracts, and should be listed as HSBP and not HSPB.


        Appendix 0: "OCPO Guidance to DHS Components"

            I) Under "Market Research," under "Publication Number," CPO recommends inserting
               "Market Research Guide."




              DHS Contracts Awarded Through Other Than Full and Open Competition 

                                   During Fiscal Year 2011


                                                     Page 19

Appendix C
DHS Contract Files Reviewed


                              DHS Contracts Reviewed4 FY 2011
                              1             HSBP1011C00013
                              2             HSBP1011C00007
                              3             HSBP1011C00012
                              4             HSBP1011C00003
                              5             HSBP1011C00034
                              6             HSBP1011C00058
                              7             HSBP1011C00068
                              8             HSBP1011C00060
                              9             HSBP1011C00086
                              10              FEEM011C0017
                              11              FEEM011C0023
                              12              FEEM011C0075
                              13             HSFEHQ11C0681
                              14             HSFEHQ11C1099
                              15             HSFEHQ11C0044
                              16             HSFEHQ11C0542
                              17           HSCG2310CP9X001
                              18           HSCG2311C2DB043
                              19           HSCG2311CPKY003
                              20           HSCG2311CPUD613
                              21           HSCG2311CMMS153
                              22           HSCG2311CAFR222
                              23           HSCG2311CARB116
                              24           HSCG2311CPB6001
                              25             HSSS0111C0014
                              26             HSSS0111C0004
                              27             HSSS0111C0002
                              28             HSSS0111C0016
                              29             HSSS0111C0035
                              30             HSSS0111C0019
                              31             HSSS0111C0020
                              32           HSTS0111CHRM904
                              33           HSTS0111CRES092
                              34            HSTS0211CTSI002
                              35           HSTS0211CTTC101
                              36           HSTS0311CSPP007
                              37            HSTS0311CCIO684
                              38            HSTS0111CFIN018
                              39           HSTS0211COGS022
                              40           HSTS0211CTTC164




4
 Contract numbers downloaded from Federal Procurement Data System-Next Generation. We gave each
component a list of contracts reviewed with deficiencies noted during our review.

                DHS Contracts Awarded Through Other Than Full and Open Competition 

                                     During Fiscal Year 2011


                                              Page 20

Appendix D
OCPO Guidance to DHS Components


                                    FY 2011 Guidance
           Acquisition Area         Publication Number         Impact
           Justification and        OCPO Regulatory            New requirement:
           Approval                 Advisory 11-18             8(a) contracts > $20
                                                               million require a
                                                               justification and
                                                               approval
           Acquisition Planning     Acquisition Alert 11-12,   Status change: APFS
                                    Amendment 2                fully operational
                                    Acquisition Alert 11-22    New requirement:
                                                               Assign component
                                                               Advance Acquisition
                                                               Plan Coordinator/
                                                               Small Business
                                                               Specialist
           Market Research          OCPO Regulatory            Additional
                                    Advisory 10-18,            requirements for
                                    Revision 1                 market research
           Past Performance         Acquisition Alert 11-6,    Update: Quality
                                    Amendment 1                checklist for Contactor
                                                               Performance
                                                               Assessment Report
                                    OCPO Regulatory            Status change:
                                    Advisory 11-15             FAPIIS publicly
                                                               available
                                    Acquisition Alert 11-16    New requirement:
                                                               Contracting Officers
                                                               must check EPLS and
                                                               FAPIIS
           Source: DHS OIG.




           DHS Contracts Awarded Through Other Than Full and Open Competition 

                                During Fiscal Year 2011


                                         Page 21

Appendix E
Contract File Checklist




             DHS Contracts Awarded Through Other Than Full and Open Competition 

                                  During Fiscal Year 2011


                                           Page 22

Appendix F
Major Contributors to this Report

                     Paul Wood, Director
                     Beverly H. Bush, Audit Manager
                     David DeHaven, Auditor
                     Andrew Herman, Auditor
                     Katrina Bynes, Auditor
                     Phillip Emswiler, Program Analyst
                     Melissa Estrella, Program Analyst
                     Juan Santana, Auditor
                     Sue Vernier, Referencer
                     Mark Ferguson, Referencer




             DHS Contracts Awarded Through Other Than Full and Open Competition 

                                  During Fiscal Year 2011


                                           Page 23
Appendix G
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Under Secretary for Management
                      DHS Chief Procurement Officer
                      DHS Competition Advocate
                      Federal Emergency Management Agency Audit Liaison
                      U.S. Coast Guard Audit Liaison
                      U.S. Secret Service Audit Liaison
                      Customs and Border Protection Audit Liaison
                      Transportation Security Administration Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




             DHS Contracts Awarded Through Other Than Full and Open Competition 

                                  During Fiscal Year 2011


                                           Page 24

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
